Report No. D-2011-069                      June 09, 2011




      American Recovery and Reinvestment Act Small
     Business Innovation Research Projects in the DoD
     Near Term Energy-Efficient Technologies Program
Additional Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest or request audits, contact the Office of the Director Inspector General for
Auditing by phone (703) 604-9142 (DSN 664-9142), by fax (703) 604-8932, or by mail:

                      ODIG-AUD (ATTN: Audit Suggestions)
                      Department of Defense Inspector General
                      400 Army Navy Drive (Room 801)
                      Arlington, VA 22202-4704




Acronyms and Abbreviations
ACC-APG (C4ISR) Army Contracting Command-Aberdeen Proving Ground
                (Command, Control, Communications, Computers, Intelligence,
                Surveillance and Reconnaissance)
AFRL            Air Force Research Laboratory
CECOM           U.S. Army Communications-Electronics Command
FAR             Federal Acquisition Regulation
FBO             Federal Business Opportunities
NTEET           Near Term Energy Efficient Technologies
OMB             Office of Management and Budget
ONR             Office of Naval Research
OUSD(C)/CFO     Office of the Under Secretary of Defense (Comptroller)/
                Chief Financial Officer
RDT&E           Research, Development, Test, and Evaluation
SBA             Small Business Administration
SBIR            Small Business Innovation Research
                                  INSPECTOR GENERAL
                                 DEPARTMENT OF DEFENSE
                                   400 ARMY NAVY DRIVE
                              ARLINGTON, VIRGINIA 22202-4704
                                                                             June 09, 2011

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE (COMPTROLLER)/
                  CHIEF FINANCIAL OFFICER
               ASSISTANT SECRETARY OF THE AIR FORCE
                  (FINANCIAL MANAGEMENT AND COMPTROLLER)
               DIRECTOR, DEFENSE RESEARCH AND ENGINEERING
               DIRECTOR, WASHINGTON HEADQUARTERS SERVICES
               NAVAL INSPECTOR GENERAL
               AUDITOR GENERAL, DEPARTMENT OF THE ARMY

SUBJECT: American Recovery and Reinvestment Act Small Business Innovation
         Research Projects in the DoD Near Term Energy-Efficient Technologies
         Program (Report No. D-2011-069)

We are providing this report for your information and use. The Navy, Air Force, and
Defense-wide Small Business Innovation Research Program personnel properly justified
and adequately planned, funded, and contracted for the four Near Term Energy-Efficient
Technologies projects we reviewed. However, the Army could have improved
contracting and transparency for the two proj ects we reviewed. We considered
management. comments on a draft of this report when preparing the final report.

The Army comments conformed to the requirements of DoD Directive 7650.3. As a
result of the management comments, we redirected report Recommendations 1 and 2
from the Commander, U S. Army Communications-Electronics Command, to the
Executive Director, U.S. Army Contracting Command, Aberdeen. Proving Ground to
reflect the command's reorganization. The Army comments were partially responsive to
Recommendation 1 and fully responsive to Recommendation 2. No further comlnents
are required for either recomnlendation.

We appreciate the courtesies extended to the staff. Please direct questions to me at
(703) 604-9071 (DSN 664-9071).




                                             Bruce A. Burton
                                             Deputy Assistant Inspector General
                                             Acquisition and Contnicl Management
THIS PAGE INTENTIONALLY LEFT BLANK
Report No. D-2011-069 (Project No. D2009-D000AB-0170.005)                             June 09, 2011


               Results in Brief: American Recovery and
               Reinvestment Act Small Business Innovation
               Research Projects in the DoD Near Term
               Energy-Efficient Technologies Program
                                                            This occurred because of a lack of contracting
What We Did                                                 office oversight, including lack of awareness
We reviewed the planning, funding, and initial              that Recovery Act requirements extended to
execution (contracting) of six Small Business               SBIR projects.
Innovation Research (SBIR) projects in the DoD
Near Term Energy-Efficient Technologies                     What We Recommend
(NTEET) program to determine whether the                    We recommend that the Executive Director,
Army, Navy, Air Force, and Defense-wide                     ACC-APG, direct the posting of award notices
contracting efforts complied with Recovery Act              that include adequate project description for two
and other Federal requirements and DoD                      contracts and direct the modification of one
implementing guidance. As of                                contract to include all required FAR Recovery
December 23, 2009, the Army, Navy, and                      Act clauses.
Air Force awarded six contract actions,
valued at approximately $1.9 million, for the               Management Comments and
six SBIR NTEET projects that we reviewed.
Five contracts were new, and the remaining
                                                            Our Response
contract action was a modification to an existing           The Army comments were partially responsive
SBIR contract.                                              to the recommendation for posting of award
                                                            notices and fully responsive to the
What We Found                                               recommendation for adding a contract clause.
                                                            However, because the period of performance for
Navy, Air Force, and Defense-wide program                   the two contracts were completed and the
personnel properly justified and adequately                 contract results were posted to
planned, funded, and contracted for                         FederalReporting.gov, we see no reason to
four SBIR NTEET projects. The U.S. Army                     pursue further posting of the two award
Contracting Command-Aberdeen Proving                        announcements or modification of one of the
Ground (C4ISR) (ACC-APG [C4ISR]; hereafter                  two contracts to include all required FAR
ACC-APG) properly planned and funded two                    Recovery Act clauses. Thus, no further
projects. However, the ACC-APG could have                   management comments are required.
improved contracting and transparency by
    • posting presolicitation or award notices
        for two contracts,
    • describing the work to be performed for
        two contracts, and
    • including required Federal Acquisition
        Regulation (FAR) Recovery Act contract
        clauses in one contract.



                                                      i
Report No. D-2011-069 (Project No. D2009-D000AB-0170.005)                June 09, 2011

Recommendations Table

          Management                       Recommendation      No Additional Comments
                                          Requiring Comment          Required
Executive Director, U.S. Army                                 1, 2
Contracting Center-Aberdeen
Proving Ground




                                                  ii
Table of Contents

Introduction                                                                 1

      Objective                                                              1
      Recovery Act Background                                                1
      Recovery Act Requirements                                              1
      Recovery Act Contracting Requirements                                  2
      OMB Recovery Act Guidance                                              3
      DoD Recovery Act Program Plans                                         3
      Review of Internal Controls                                            4

Finding. Army SBIR NTEET Program Implementation Needs Improvement            5

      Army, Navy, and Air Force Properly Planned Projects                    5
      Military Departments and Defense Agencies Promptly Distributed NTEET
        Program Funding                                                      6
      Navy and Air Force Properly Contracted Projects                        7
      Army ACC-APG Needs to Improve Transparency of SBIR NTEET
        Contracting                                                          8
      Management Comments on the Report and Our Response                     9
      Management Comments on Recommendations and Our Response                9

Appendices

      A. Scope and Methodology                                               11
            Use of Computer-Processed Data                                   11
            Prior Coverage                                                   11
      B. Recovery Act Criteria and Guidance                                  12

Management Comments

      Department of the Army                                                 14
THIS PAGE INTENTIONALLY LEFT BLANK
Introduction
Objective
The primary objective of the audit was to determine whether DoD and its Components
were planning and implementing the American Recovery and Reinvestment Act of 2009
(Recovery Act) by meeting the requirements in the Recovery Act; Office of Management
and Budget (OMB) Memorandum M-09-10, “Initial Implementing Guidance for the
American Recovery and Reinvestment Act of 2009,” February 18, 2009; and subsequent
related guidance. For this audit, we reviewed the planning, funding, and initial execution
(contracting) of six Small Business Innovation Research (SBIR) projects in the DoD Near
Term Energy-Efficient Technologies (NTEET) Program to determine whether the Army,
Navy, Air Force, and Defense-wide contracting efforts complied with Recovery Act
requirements, OMB guidance, the Federal Acquisition Regulation (FAR), and DoD
implementing guidance. See Appendix A for a discussion of our scope and methodology.

Recovery Act Background
The President signed the Recovery Act into law on February 17, 2009. It is an
unprecedented effort to jump-start the economy and create or save jobs.

       The purposes of this Act include the following:
              (1) To preserve and create jobs and promote economic recovery.
              (2) To assist those most impacted by the recession.
              (3) To provide investments needed to increase economic efficiency by spurring technological
                  advances in science and health.
              (4) To invest in transportation, environmental protection, and other infrastructure that will
                  provide long-term economic benefits.
              (5) To stabilize State and local government budgets, in order to minimize and avoid
                  reductions in essential services and counterproductive state and local tax increases.
                           .         .        .        .        .         .        .
       . . . the heads of Federal departments and agencies shall manage and expend the funds made
       available in this Act so as to achieve the purposes specified . . . including commencing
       expenditures and activities as quickly as possible consistent with prudent management..

Recovery Act Requirements
The Recovery Act and implementing OMB guidance require projects to be monitored and
reviewed. We grouped these requirements into the following four phases: (1) planning,
(2) funding, (3) initial execution, and (4) tracking and reporting. The Recovery Act
requires that projects be properly planned to ensure the appropriate use of funds. Review
of the funding phase is to ensure the funds were distributed in a prompt, fair, and
reasonable manner. Review of the initial execution phase is to ensure that contracts
awarded with Recovery Act funds were transparent, competed, and contained specific
FAR clauses; that Recovery Act funds were used for authorized purposes; and that
instances of fraud, waste, error, and abuse were mitigated. Review of the execution phase
also ensures that program goals were achieved, including specific program outcomes and
improved results on broader economic indicators; and that projects funded avoided
                                                   1
unnecessary delays and cost overruns. Review of the tracking and reporting phase
ensures that the recipients’ use of funds was transparent to the public and that benefits of
the funds were clearly, accurately, and timely reported.

Recovery Act Contracting Requirements
The Recovery Act establishes transparency and accountability requirements. Federal
Acquisition Circular 2005-32, March 31, 2009, provides policies and procedures for the
Government-wide implementation of the Recovery Act and guidance on special contract
provisions. Federal Acquisition Circular 2005-32 amended the FAR and provided
interim rules that made FAR solicitation provisions and contract clauses immediately
available for inclusion in contracts for Recovery Act work.

The specific FAR Recovery Act requirements are for:

    •    buying American construction material, 1
    •    protecting contractor whistleblowers,
    •    publicizing contract actions,
    •    reporting, and
    •    giving the Government Accountability Office and agency Inspectors General
         access to contracting records.

Federal Government organizations meet requirements for Recovery Act contract actions
by posting information on the Federal Business Opportunities (FBO) and Federal
Procurement Data System (FPDS) Web sites. FAR Subpart 5.7, “Publicizing
Requirements Under the American Recovery and Reinvestment Act of 2009,” directs
contracting officers to use the Government-wide FBO Web site (http://www.fbo.gov) to:

     •   identify the action as funded by the Recovery Act,
     •   post pre-award notices for orders exceeding $25,000,
     •   describe supplies in a clear narrative to the general public, and
     •   provide the rationale for awarding any contracting actions that were not both
         fixed-price and competitive.

FBO is the Federal Government’s central source of Federal procurement opportunities.
FBO is a Web-based portal that allows agency officials to post Federal procurement
opportunities and contractors to search and review those opportunities. Agencies also
post contract award notices on FBO. In addition, to provide transparency, FBO has a
separate section identifying Recovery Act opportunities and awards.




1
 FAR 25.6,”American Recovery and Reinvestment Act–Buy American Act–Construction Materials,” is
not applicable to Recovery Act NTEET projects because these projects are research and development, not
construction.
                                                   2
FPDS is the Federal Government’s central source of procurement information.
Contracting officers enter information, to include the Treasury Account Symbol, in the
FPDS for all Recovery Act contract actions. The Treasury Account Symbol enables
FPDS to provide transparency by generating and posting a report containing all Recovery
Act contract actions.

OMB Recovery Act Guidance
Criteria for planning and implementing the Recovery Act continue to change as OMB
issues additional guidance and DoD and the Components issue their implementation
guidance. OMB has issued 12 memoranda and 1 bulletin to address the implementation
of the Recovery Act. See Appendix B for Recovery Act criteria and guidance.

DoD Recovery Act Program Plans
Under the Recovery Act, Congress appropriated approximately $12 billion to DoD for
the following programs: Energy Conservation Investment; Facilities Sustainment,
Restoration, and Modernization (FSRM); Homeowners Assistance; Military
Construction; NTEET; and U.S. Army Corps of Engineers Civil Works. The Recovery
Act divides the approximately $12 billion among 32 DoD and U.S. Army Corps of
Engineers line items of appropriations.

     Table 1. DoD Agency-Wide and Program-Specific Recovery Act Programs
                            Program                          Amount
                                                           (in millions)
    Energy Conservation Investment                             $120
    Facilities Sustainment, Restoration, and Modernization    4,260*
    Homeowners Assistance                                       555
    Military Construction                                     2,185
    Near Term Energy-Efficient Technologies                     300
    U.S. Army Corps of Engineers Civil Works                  4,600
       Total                                               $12,020*
*On August 10, 2010, Public Law 111-226, Title III, “Rescissions,” rescinded $260.5 million of funds from
DoD Operations and Maintenance Accounts and Defense Health Program Account supporting the
Recovery Act. This reduced the DoD Recovery Act FSRM amounts to approximately $4 billion and total
DoD Agency-wide and Program-Specific Recovery Act program funding to approximately $11.76 billion.

DoD NTEET Program Planning
Under the Recovery Act, Congress appropriated $300 million for DoD Research,
Development, Test, and Evaluation (RDT&E) in four accounts of $75 million each for
the Army, Navy, Air Force, and Defense-wide NTEET Recovery Act programs. Each
recipient of the $75 million was required to set-aside 2.8 percent ($2.1 million) to fund
the SBIR NTEET Recovery Act projects.



                                                   3
Research and Development Contracting
The primary purpose of contracted research and development programs is to advance
scientific and technical knowledge and apply that knowledge to achieve agency and
national goals. Unlike contracts for other services and supplies, most research and
development contracts contain objectives for which the work or method cannot be
precisely described in advance. Although the Government prefers to use fixed-price
contracts, they do not usually apply to research and development contracting, where
specifications and cost estimates are usually not precise enough to permit a fixed-price
preference. Therefore, the DoD NTEET Program Plan, May 15, 2009, forecasted a
smaller percentage of fixed-price contract actions for anticipated Recovery Act NTEET
program projects than for other Recovery Act project categories.

Small Business Innovation Research Program
The SBIR Program was established under Public Law 97-219, “Small Business
Innovation Development Act of 1982,” July 22, 1982, and reauthorized through
May 31, 2011, by Public Law 112-1, Title I, “Small Business Reauthorization Act of
1958,”January 31, 2011. The U.S. Small Business Administration (SBA) is the
coordinating agency for the SBIR Program. The SBA maintains overall Federal policy
for SBIR and directs 11 Federal agencies’ 2 implementation of SBIR, reviews their
progress, and reports annually to Congress on the program’s operation. As required by
public law, the SBA is responsible for ensuring that the 11 Federal agencies reserve a
portion of their overall research and development extramural budget for award to small
businesses.

Review of Internal Controls
We determined that an internal control weakness over contracting and initial execution of
two Recovery Act contracts at Aberdeen Proving Ground existed as defined by DOD
Instruction 5010.40, “Managers’ Internal Control Program (MICP) Procedures,”
July 29, 2010. We will provide a copy of the final report to the senior official responsible
for internal controls at the U. S. Army Contracting Command-Aberdeen Proving Ground
(C4ISR) (ACC-APG [C4ISR]; hereafter ACC-APG).




2
 The 11 Federal agencies participating in the SBIR program are the Department of Agriculture,
Department of Commerce, Department of Defense, Department of Education, Department of Energy,
Department of Health and Human Services, Department of Homeland Security, Department of
Transportation, Environmental Protection Agency, National Aeronautics and Space Administration, and the
National Science Foundation.
                                                  4
Finding. Army SBIR NTEET Program
Implementation Needs Improvement
Navy, Air Force, and Defense-wide program personnel properly justified and adequately
planned, funded, and contracted for four SBIR NTEET projects. The ACC-APG
properly planned and funded two projects. However, the ACC-APG could have
improved contracting and transparency for projects by

   •   posting presolicitation or award notices,
   •   including required FAR Recovery Act contract clauses, and
   •   describing the work to be performed.

ACC-APG contracting personnel did not post presolicitations or award notices, include
required FAR Recovery Act clauses in the contracts, or describe the work to be
performed in the presolicitation or award notice posted on FBO Web site because of a
lack of contracting office oversight. The FAR Recovery Act clauses were absent because
contracting officials were unaware that Recovery Act funded contracts required the
clauses. Inclusion of all applicable Recovery Act clauses in contracts informs contractors
about reporting requirements and promotes compliance. As a result, the Army SBIR
projects did not achieve transparency, which was a primary objective of the Recovery
Act.

Army, Navy, and Air Force Properly Planned Projects
The Army, Navy, and Air Force adequately and properly planned the six SBIR NTEET
projects reviewed.

SBIR Program Process
The SBIR program is a phased process, which is uniform throughout the Federal
Government for research and development. Each Federal agency with a research and
development budget of $100 million or more must participate in the SBIR program.

The SBIR contractual process is structured into the following three phases:

   •   Phase I: initial determination of technical feasibility,
   •   Phase II: prototype development, and
   •   Phase III: commercialization of the technology in either the military or private-
       sector markets.

The “Small Business Innovation Research Program Policy Directive,”
September 24, 2002 (the SBA Policy Directive) notes that Phase I allows small
businesses to bid on early-stage research and development solicitations to determine
initial approaches to specific DoD requirements. Phase II contracts further develop the
research and development efforts and, in many cases, require delivery of a prototype.

                                            5
Small businesses may submit Phase II proposals only by Government invitation. The
commercial potential of Phase II proposals is an evaluation factor for award.

A program solicitation for proposals is used to formally notify the public of an agency’s
research needs and interests. DoD issues one Small Business Technology Transfer and
three SBIR solicitation lists each year, which contain all the research topics available to
candidates to obtain SBIR Phase I contracts.

SBIR Project Planning and Recovery Act Funding
DoD SBIR Program officials planned and funded 22 NTEET projects using the
$8.4 million set aside from the Recovery Act appropriation. SBIR personnel chose topics
from previous SBIR solicitation lists to meet the timeliness intent of Recovery Act
guidance.

We reviewed six of the projects, valued at approximately $1.9 million. The six projects
were at Aberdeen Proving Ground (APG), Aberdeen, Maryland; the Office of Naval
Research (ONR), Arlington, Virginia; and the Air Force Research Laboratory (AFRL),
Wright-Patterson Air Force Base, Dayton, Ohio. See Table 2 for the topics and values of
the projects.
                                Table 2. SBIR NTEET Projects Reviewed
                        Topic                               Command/        Topic      Amount
                                                           Headquarters    Number
Light Weight 1.5-Ton Ammonia Absorption                       APG          A09-090     $69,975
Refrigeration Unit
Heat Actuated Cooling System                                  APG          A09-090      67,730
Desulphurization of Logistic JP-5 Jet Fuel for                ONR          N06-152     299,969
Enhanced Fuel Cell Operations
Advanced Manufacturing Techniques for                         AFRL         AF06-74     622,896
High-Efficiency Functional Gradient Solid
Oxide Fuel Cells
High-Temperature Blower Development for                       AFRL1       OSD08-EP3    480,000
Solid Oxide Fuel Cell Applications
Efficient Thermal Energy Storage for Mega-                    AFRL1       OSD08-EP1    330,000
Joule Class Weapon Systems
    Total                                                                             $1,870,570
1
 Defense-wide projects were contracted through the AFRL.


Military Departments and Defense Agencies Promptly
Distributed NTEET Program Funding
The Army, Navy, and Air Force properly and fairly distributed Recovery Act funds,
meeting the Recovery Act goals for the SBIR NTEET projects. On March 10, 2009, the
Office of the Under Secretary of Defense (Comptroller)/Chief Financial Officer
(OUSD[C]/CFO) released funds totaling $225 million, appropriated in the Recovery Act,
to the Assistant Secretaries (Financial Management and Comptroller) of the Army, Navy,
and Air Force. The OUSD(C)/CFO released the remaining $75 million of Recovery Act
funds for Defense agencies, which funded the Defense-wide NTEET projects contracted
                                            6
through the AFRL, to the Directors of the Defense Logistics Agency and the Washington
Headquarters Services.

On April 24, 2009, the Assistant Secretary of the Army (Financial Management and
Comptroller) used a funding authorization document to transfer $2.1 million to fund all
nine of the Army SBIR NTEET projects. On April 16, 2009, the Comptroller, Office of
Naval Research, appropriated $2.1 million to finance all six Navy SBIR NTEET projects.
On May 13, 2009, the Assistant Secretary of the Air Force/Financial Management &
Budget transferred $2.1 million to fund all four Air Force SBIR NTEET projects. On
June 9, 2009, the Director, Budget and Finance, Washington Headquarters Services, used
a funding authorization document to transfer $1.7 million to AFRL to fund all three
Defense-wide SBIR NTEET projects. 3

Navy and Air Force Properly Contracted Projects
                               The Navy and Air Force properly contracted the four
       The language in the
                               projects that we reviewed. The language in the
      presolicitation notices
                               presolicitation notices met the intent of the Recovery Act,
       met the intent of the
                               which was to facilitate transparency by notifying
    Recovery Act, which was
                               contractors and the public of business opportunities. The
    to facilitate transparency
                               synopses in the presolicitation notices clearly explained
     by notifying contractors
                               the nature of the work and informed the public that the
         and the public of
                               award was made to a small business. The synopses in the
     business opportunities.
                               award notices explained that a cost-reimbursement
contract was used because of existing uncertainties that prevented costs from being
accurately estimated. All contracts contained the required FAR clauses for Recovery Act
projects.

On September 29, 2008, ONR contracting personnel awarded contract N00014-08-C-
0232, valued at $449,990, with two options. ONR modified the contract on
October 29, 2009, exercising Option I, which added $299,969 of Recovery Act funds.
ONR contracting personnel posted the presolicitation notice for the Navy contract on the
FBO Web site on February 25, 2010. Also on February 25, 2010, the contracting office
posted contract award N00014-08-C-0232 as a cost-plus-fixed-fee contract on the FBO
Web site.
On May 15, 2009, AFRL contracting personnel posted the presolicitation notice for
contract FA8650-09-C-2016 on the FBO Web site. On July 27, 2009, AFRL contracting
personnel awarded contract FA8650-09-C-2016 as a Phase II cost-reimbursement
contract, valued at $622,896, and the award was posted on the FBO Web site on
July 28, 2009.

We reviewed two Defense-wide SBIR NTEET projects placed through the AFRL and
determined that AFRL personnel properly solicited and awarded the contracts.



3
    The Defense Logistics Agency did not fund any of the Defense-wide SBIR NTEET projects.
                                                    7
   •   Contract FA8650-09-C-2043 – On September 30, 2009, AFRL contracting
       personnel awarded contract FA8650-09-C-2043 for a total of $749,990, of which
       $480,000 was Recovery Act funding. On June 22, 2009, AFRL contracting
       personnel posted the presolicitation notice. The contract was awarded as a
       Phase II cost-plus-fixed-fee contract, and the award was posted on the FBO Web
       site on October 1, 2009.

   •   Contract FA8650-10-C-2040 – On October 1, 2009, AFRL contracting personnel
       awarded contract FA8650-10-C-2040 for a total of $749,960, of which $330,000
       was Recovery Act funding. On June 22, 2009, AFRL contracting personnel
       posted the presolicitation notice. The contract was awarded as a Phase II cost-
       plus-fixed-fee contract, and the award was posted on the FBO Web site on
       October 15, 2009.

Army ACC-APG Needs to Improve Transparency
of SBIR NTEET Contracting
Public awareness was not achieved in the two Army SBIR project contracts or the
solicitations that we reviewed. The problems included lack of public notification of
contracts solicited and awarded, no description of the work to be performed in the
contracts, and a missing Recovery Act clause in the solicitation and award of one
contract.

Public Awareness Was Not Achieved
For contracts W15P7T-10-C-C204 and W15P7T-09-C-S039, ACC-APG contracting
officials did not post a presolicitation, award notice, or adequate project description on
the FBO Web site because they did not think that the Recovery Act requirement extended
to SBIR projects. According to FAR subpart 5.7, the presolicitation notifications must be
posted. Because they were not posted, contractors and the public were not aware of
potential business opportunities. ACC-APG contracting personnel did not post adequate
project descriptions on the FBO Web site, as directed by FAR Subpart 5.2, “Synopses of
Proposed Contract Actions.” Therefore, the public was not given a clear understanding
of the purpose of the contracts in support of the project.

Recovery Act Contract Clause Was Missing
ACC-APG personnel should have included a FAR-required Recovery Act clause for one
of the contracts reviewed. Contract W15P7T-10-C-C204 did not contain required FAR
clause 52.215.02, “Audit and Records-Negotiation.” We suggested that the Army SBIR
program manager make the necessary corrections to postings for contracts W15P7T-10-
C-C204 and W15P7T-09-C-S039, since both Army NTEET postings were noncompliant
with regard to including an adequate project description and that the FAR clause should
be added to contract W15P7T-10-C-C204. However, the Army SBIR program manager
did not respond to our suggestions. ACC-APG contracting officials did not provide any
explanation for omitting the required clause. As a result, the contractors were not
informed about this reporting requirement, which would have promoted compliance.

                                            8
Management Comments on the Report and Our
Response
The Executive Director, U.S. Army Contracting Command, recommended that we revise
the final report to include the name U. S. Army Contracting Command-Aberdeen Proving
Ground (ACC-APG) rather than U. S. Army Communications-Electronics Command
(CECOM).

Our Response
We revised the final report discussion and associated recommendations to note that
ACC-APG was reorganized from CECOM.

Management Comments on Recommendations and Our
Response
As a result of management comments, we redirected report Recommendations 1 and 2
from the Commander, CECOM, to the Executive Director, ACC-APG.

Recommendations
We recommend that the Executive Director, U.S. Army Contracting Command-
Aberdeen Proving Ground:

       1. Direct the posting of award notices that include adequate project
description for contracts W15P7T-10-C-C204 and W15P7T-09-C-S039.

Army Comments
The Executive Director, ACC-APG, stated that his office had issued Phase I SBIR
contracts W15P7T-10-C-C204 and W15P7T-09-C-S039 for Recovery Act purposes after
performing a competitive selection from 15 proposals under the applicable SBIR
solicitation. The Executive Director noted that the awards were posted on the Army
SBIR public Web site but not posted on FBO because they were competitively awarded
and were fixed-price. The Executive Director noted that the award of W15P7T-09-C-
S039 was for research and development of a microgroove heat exchanger technology for
ammonia heat-actuated cooling applications. The Executive Director also noted that the
contract W15P7T-10-C-C204 award was to develop heat-actuated technology capable of
providing air-conditioning and heating at high and low ambient temperatures.

Our Response
The Executive Director’s comments were partially responsive to the intent of the
recommendation. They included an adequate project description for contracts W15P7T-
10-C-C204 and W15P7T-09-C-S039 but did not recognize that all Recovery Act award
actions are required by OMB, FAR, and DoD guidance to be posted to the FBO Web site
regardless of whether they are competitively awarded or fixed-price. However, because
both contracts’ period of performance has ended and the summarized results have been
posted to FederalReporting.gov, we see no reason to pursue this matter. Thus, no
additional management comments are required.
                                            9
       2. Direct the modification of contract W15P7T-10-C-C204 to include all
required Recovery Act clauses.

Army Comments
The Executive Director agreed that required Recovery Act FAR clause 52.215-02, “Audit
and Records-Negotiation,” should have been included in contract W15P7T-10-C-C204.
However, the Executive Director stated that it would be inappropriate to modify the
contract to incorporate the clause because the performance was completed on this firm-
fixed-price contract. The Executive Director stated that the ACC-APG contracting
workforce would be reminded to include all required Recovery Act clauses in future
contracts.

Our Response
The Executive Director’s comments were responsive to the intent of the recommendation.
We confirmed that work had been completed for the subject contract and that adding the
clause at this point was unnecessary. No further management comments are required.




                                         10
Appendix A. Scope and Methodology
We conducted this audit from October 2009 through March 2011 in accordance with
generally accepted government auditing standards. Those standards require that we plan
and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
basis for our conclusions based on our audit objectives. We believe that the evidence
obtained provides a reasonable basis for our conclusions based on our audit objectives.

We reviewed ACC-APG, ONR, and AFRL contracting and financial documentation from
December 2009 to July 2010. We visited AFRL to review three of the selected projects.
We interviewed program and contracting personnel at AFRL. For the remaining three
projects, we contacted personnel at APG and ONR to obtain contracting and financial
documentation from SBIR program managers, contracting officers, contracting officer’s
representatives, and various Federal Web sites. We used this supporting documentation
to determine whether contract solicitations and awards met Recovery Act and Office of
Management and Budget implementation and transparency requirements. We did not
review the entire contract files at APG or ONR.

Before selecting DoD Recovery Act projects to audit, the Quantitative Methods and
Analysis Division of the DoD Office of Inspector General analyzed all DoD agency-
funded projects, locations, and contracting oversight organizations to assess the risk of
waste, fraud, and abuse associated with each. We judgmentally selected the six SBIR
projects from the list of 22 SBIR and Small Business Technology Transfer projects
provided by the Director, Defense Small Business Program. The sample included
projects from each Service that were awarded Phase I and Phase II SBIR contracts. Our
audit focused on the reporting of contract actions on specific SBIR projects. From these
procedures, we concluded that the DoD data were sufficiently reliable for our audit
purposes

Use of Computer-Processed Data
We used computer-processed data to perform this audit. Specifically, we used posted
notices on the FBO Web site (http://www.fedbizopps.gov ) in meeting our audit
objectives. We tested the accuracy of the data by comparing the project data reported on
the FBO Web site with documents in the contract file. Our audit focused on the reporting
of contracts on specific SBIR projects. From these procedures, we concluded that the
DoD data were sufficiently reliable for our audit purposes.

Prior Coverage
The Government Accountability Office, the Department of Defense Inspector General,
and the Military Departments have issued reports and memoranda discussing DoD
projects funded by the Recovery Act. You can access unrestricted reports at
http://www.recovery.gov/accountability.




                                            11
Appendix B. Recovery Act Criteria and
Guidance
The following list includes the primary Recovery Act criteria documents (notes appear at
the end of the list):

    •   U.S. House of Representatives Conference Committee Report 111-16, “Making
        Supplemental Appropriations for Job Preservation and Creation, Infrastructure
        Investment, Energy Efficiency and Science, Assistance to the Unemployed, and
        State and Local Fiscal Stabilization, for the Fiscal Year Ending September 30,
        2009, and for Other Purposes,” February 12, 2009

    •   Public Law 111-5, “American Recovery and Reinvestment Act of 2009,”
        February 17, 2009

    •   OMB Memorandum M-09-10, “Initial Implementing Guidance for the American
        Recovery and Reinvestment Act of 2009,” February 18, 2009

    • OMB Bulletin No. 09-02, “Budget Execution of the American Recovery and
      Investment Act of 2009 Appropriations,” February 25, 2009

    • White House Memorandum, “Government Contracting,” March 4, 2009

    •   White House Memorandum, “Ensuring Responsible Spending of Recovery Act
        Funds,” March 20, 2009

    •   OMB Memorandum M-09-15, “Updated Implementing Guidance for the
        American Recovery and Reinvestment Act of 2009,” April 3, 20091


    •   OMB Memorandum M-09-16, “Interim Guidance Regarding Communications
        With Registered Lobbyists About Recovery Act Funds,” April 7, 2009


    •   OMB Memorandum M-09-19, “Guidance on Data Submission under the Federal
        Funding Accountability and Transparency Act (FFATA),” June 1, 2009


    •   OMB Memorandum M-09-21, “Implementing Guidance for the Reports on Use
        of Funds Pursuant to the American Recovery and Reinvestment Act of 2009,”
        June 22, 20092


    •   OMB Memorandum M-09-24, “Updated Guidance Regarding Communications
        with Registered Lobbyists About Recovery Act Funds,” July 24, 2009


                                           12
     •   OMB Memorandum M-09-30, “Improving Recovery Act Recipient Reporting,”
         September 11, 2009

     • OMB Office of Federal Procurement Policy, “Interim Guidance on Reviewing
       Contractor Reports on the Use of Recovery Act Funds in Accordance with FAR
       Clause 52.204-11,” September 30, 20092

     • OMB Memorandum M-10-08, “Updated Guidance on the American Recovery
       and Reinvestment Act – Data Quality, Non-Reporting Recipients, and Reporting
       of Job Estimates,” December 18, 20092

     • OMB Memorandum M-10-14, “Updated Guidance on the American Recovery
       and Reinvestment Act,” March 22, 20102

    •    White House Memorandum, “Combating Noncompliance With Recovery Act
         Reporting Requirements,” April 6, 2010

    •    OMB Memorandum M-10-17, “Holding Recipients Accountable for Reporting
         Compliance under the American Recovery and Reinvestment Act,” May 4, 20102

    •    OMB Memorandum M-10-34, “Updated Guidance on the American Recovery
         and Reinvestment Act,” September 24, 20102




Notes
1
 Document provides Government-wide guidance for carrying out programs and activities enacted in the
American Recovery and Reinvestment Act of 2009. The guidance states that the President’s commitment
is to ensure that public funds are expended responsibly and in a transparent manner to further job creation,
economic recovery, and other purposes of the Recovery Act.

2
 Document provides Federal agencies guidance for carrying out the reporting requirements included in
section 1512 of the Recovery Act. The reports will be submitted by recipients beginning in October 2009
and will contain detailed information on the projects and activities funded by the Recovery Act.




                                                     13
Department of the Army Comments




                  Click to add JPEG file




                                 14
                           Final Report
                            Reference




Click to add JPEG file




                         Revised

                         Revised




               15
Click to add JPEG file




               16
Click to add JPEG file




               17
                           Final Report
                            Reference




Click to add JPEG file




                         Not included due to
                         length




               18
                           Final Report
                            Reference




                         Attachments 1-3
                         not included due to
                         length




Click to add JPEG file




               19
THIS PAGE INTENTIONALLY LEFT BLANK
THIS PAGE INTENTIONALLY LEFT BLANK
